No. 19-1094

In the Supreme Court of the United States
JAMES MILTON DAILEY,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
On Petition for a Writ of Certiorari to
the Florida Supreme Court
REPLY BRIEF FOR PETITIONER
LAURA FERNANDEZ
127 Wall Street
New Haven, CT 06511
JOSHUA DUBIN
201 S. Biscayne Blvd.
Ste. 1210
Miami, FL 33131-4316
CYD OPPENHEIMER
155 West Rock Ave.
New Haven, CT 06515

CHARLES A. ROTHFELD
Counsel of Record
ANDREW J. PINCUS
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006
(202) 263-3000
crothfeld@mayerbrown.com
MICHAEL B. KIMBERLY
PAUL W. HUGHES
McDermott Will & Emery
LLP
500 N. Capitol Street, NW
Washington, DC 20001
(202) 756-8000

Additional names on inside cover

SCOTT A. EDELMAN
STEPHEN P. MORGAN
Milbank LLP
55 Hudson Yards
New York, NY 10001
KARA R. OTTERVANGER
JULISSA R. FONTAN
Capital Collateral Regional Counsel Middle
Region
12973 N. Telecom Parkway
Temple Terrace, FL 33637
SETH MILLER
Innocence Project of Florida, Inc.
1100 E. Park Ave
Tallahassee, FL
32301-2651

EUGENE R. FIDELL
Yale Law School
Supreme Court Clinic
127 Wall Street
New Haven, CT 06511

i
TABLE OF CONTENTS
Page
A. The State’s account of the facts is
misleading ........................................................ 1
B. The decision below does not rest on an independent and adequate state ground ............... 4
C. The challenge to the Florida courts’ due-diligence requirement is properly presented
here................................................................... 6
D. The Florida Supreme Court misapplied
Brady and Giglio ............................................. 8
E. The cumulative effect of the suppressed evidence undermines confidence in the
verdict ............................................................ 10
CONCLUSION ......................................................... 12

ii
TABLE OF AUTHORITIES

Page(s)
CASES
Banks v. Dretke,
540 U.S. 668 (2004) ................................................ 8
Caldwell v. Mississippi,
472 U.S. 320 (1985) ............................................ 5, 8
Strickler v. Greene,
527 U.S. 263 (1999) ................................................ 7
United States v. Agurs,
427 U.S. 97 (1976) .................................................. 9
Wearry v. Cain,
136 S. Ct. 1002 (2016) (per curiam) .............. 10, 11
OTHER AUTHORITIES
Pamela Colloff, How This Con Man’s
Wild Testimony Sent Dozens to Jail,
and 4 to Death Row, N.Y. Times
Magazine (Dec. 4, 2019), https://tinyurl.com/wc8d3a8 ................................................ 4

REPLY BRIEF FOR PETITIONER

The petition shows that the evidence used by the
State to obtain a capital verdict against petitioner was
disturbingly weak to begin with, and is further undermined by evidence that the State withheld from petitioner in violation of Brady and Giglio. The State’s opposition to the petition does not come to grips with
these points: it distorts the record and does not meaningfully engage the Brady and Giglio errors committed below. Especially because these errors led to a sentence of death, this Court’s intervention is imperative.
A. The State’s account of the facts is misleading.
The State devotes much of its opposition to defending its factual case against petitioner. Opp. 2-5,
27-28. In its key respects, this presentation is demonstrably inconsistent with the record.
1. At the outset, third-party review of the evidence
establishes the weakness of the State’s case. In their
amicus brief supporting Dailey’s other pending petition for certiorari, No. 19-7309, the U.S. and Florida
Conferences of Catholic Bishops (“Catholic Bishops
Br.”), after a close review of the record, label the evidence against Dailey “shockingly sparse” (Br. 3) and
“vanishingly thin” (Br. 5), concluding that “the evidence of Mr. Dailey’s actual innocence is not only credible; it is overwhelming.” Br. 7. In another amicus
brief supporting that petition, current and former
prosecutors (“Prosecutors Br.”) who have defended the
death penalty likewise conclude that, absent review
by this Court, there is a “substantial likelihood that
an innocent man could soon be executed for a crime
that he did not commit.” Br. 17. That conclusion is

2
confirmed by journalists’ review of the case. See, e.g.,
Pet. 6 n.3.
2. Although space constraints preclude complete
review of the record here, the primary evidentiary
points made by the State are wrong.
First, the centerpiece of the State’s presentation is
a graphic description of Shelly Boggio’s brutal murder
that places the knife in Dailey’s hand. Opp. 2-3, 27-28.
But the State fails to mention that this account rests
solely on the word of Jack Pearcy, whose description
of the murder, as the Catholic Bishops explain, came
in “a series of self-serving statements [he made] to the
police in an attempt to shift the blame to Mr. Dailey.”
Br. 3. Because Pearcy acknowledged being present
when the victim was killed, the State’s repeated observation that his statement “was ‘consistent with the
physical facts of the case’” (Opp. 3; see id. at 28) gives
him no additional credibility and is wholly nonprobative of Dailey’s guilt. Pearcy subsequently affirmed
Dailey’s innocence on at least four occasions. Pet. 5.
Second, the principal evidence cited by the State
tying Dailey to the crime rests on the assertion that,
after the group including the victim arrived at
Pearcy’s house, “[Oza] Shaw and [Gayle] Bailey
stayed there for the rest of the night, but Dailey and
Pearcy took Shelly back out” (Opp. 2); “Shaw and Bailey testified that they saw Dailey and Pearcy when
they returned from the beach”; and “Dailey and
Pearcy entered the house together without Shelly, and
Shaw and Bailey both noticed that Dailey’s pants
were wet.” Opp. 3-4; see id. at 28. This account is misleading.
Bailey, Pearcy’s girlfriend, did state that Pearcy,
Dailey, and the victim left the house together. Pet. 3.

3
But Shaw gave a very different account. His evidence
indicated that, during the period the murder occurred,
Pearcy and the victim left the house without Dailey;
that Shaw himself, and not Dailey, left with Pearcy
and the victim; that Pearcy deposited Shaw at a telephone booth, where he made a lengthy call before returning to the house alone; that Pearcy subsequently
returned to the house without the victim; and it was
only afterwards that Pearcy and Dailey left together,
returning with wet pants. Pet. 3-5; No. 19-7309 Pet. 2.
Shaw’s account is confirmed by telephone records indicating that he made the call he described. No. 197309 Pet. at 8-9. Far from establishing Dailey’s guilt,
this evidence tends to confirm that Pearcy committed
the crime—and that he did so alone.
Third, the State reports that, “[h]ours after the
murder, Dailey, Pearcy, Shaw, and Bailey fled to Miami.” Opp. 3; id. at 28 (Dailey “then disappeared from
Florida altogether”). In fact, this evidence also tends
to support Dailey’s innocence. The trip to Miami was
Pearcy’s idea; Pearcy registered at a Miami hotel under an alias but Dailey registered under his own
name; and Dailey subsequently lived and worked in
Arizona and California (i.e., “disappeared from Florida”) under his own name. No. 19-7309 Pet. 2-3. These
actions suggest that Pearcy, and not Dailey, had
something to hide. After all, Shaw and Bailey also
“fled to Miami” with Pearcy, yet the State does not
suggest that they were involved in the murder.
Fourth, the State’s case at trial in fact rested overwhelmingly on the testimony of three almost laughably unreliable jailhouse informants, who claimed that
Dailey confessed to them that he committed a brutal

4
murder, but did so only after a detective seeking incriminating evidence in return for favorable treatment visited the jail. See Pet. 3-4, 5-6. The Catholic
Bishops thus report that “the evidence against Mr.
Dailey consisted entirely of testimony given by three
jailhouse informants who each sought, in exchange for
their testimony, lenient treatment from the State in
their own unrelated cases” (Br. 4), while the amicus
Prosecutors explain that “the informants’ testimony
was quite simply the keystone to the prosecution
case.” Br. 9. That being so, it is telling that the State’s
brief in opposition glosses over this testimony and
wholly ignores the account of the State’s star—and
since discredited—witness, Paul Skalnik. See Pet. 5-6
& n.3.1
B. The decision below does not rest on an independent and adequate state ground.
The State begins its legal argument by contending
that this Court lacks jurisdiction because the courts
below rested their decisions on a Florida procedural
bar—a newly discovered evidence requirement—that
purportedly constitutes an independent and adequate

The State does claim that the testimony of the other two informants was “corroborated” by notes that “Dailey and Pearcy
passed to each other in jail” and that one of Pearcy’s notes implicated Dailey as the killer. Opp. 4; id. at 28. On examination,
Pearcy’s notes encourage Dailey to provide favorable testimony
at Pearcy’s trial; in his responsive notes, “Dailey appeared eager
to appease his co-defendant, whom prosecutors planned to put on
the stand.” Pamela Colloff, How This Con Man’s Wild Testimony
Sent Dozens to Jail, and 4 to Death Row, N.Y. Times Magazine
(Dec. 4, 2019), https://tinyurl.com/wc8d3a8. This exchange shows
that Pearcy sought Dailey’s assistance, not that Dailey actually
committed the crime.
1

5
state ground for their rulings. Opp. 16-18. This contention is wrong.
1. It is manifest from the face of the Florida Supreme Court’s decision that the ruling below decided
a federal constitutional question. That court treated
as separate contentions the “newly discovered evidence” claim that (the State asserts) triggered the procedural bar upon which it now relies, and the Brady
and Giglio claims advanced in the petition. Pet. App,
6a (“Dailey claims that newly discovered evidence exists * * *. He also raises a Brady claim * * * and a
Giglio claim * * *. We address each claim below.”)
(emphasis added).
The court proceeded to address and expressly resolve petitioner’s Brady claim (see id. at 8a-9a (“[w]e
first conclude that Dailey has failed to state a Brady
claim based on Slater’s testimony”)) and Giglio claim
(id. at 11a (spelling out elements of a Giglio violation
and holding them not established)). The court subsequently addressed what it characterized as the “newly
discovered evidence claim.” Id. at 9a (“We also conclude that Dailey has failed to state a newly discovered evidence claim.”) (emphasis added) ibid.
Given that treatment of the federal claims, this
Court plainly has jurisdiction. See, e.g., Caldwell v.
Mississippi, 472 U.S. 320, 327 (1985). There is no ambiguity on the point: the courts below expressly resolved the federal claims presented in the petition.
The State acknowledges as much when it is off its
guard, noting that the court below “pass[ed] on the
merits of Dailey’s Brady claim.” Opp. 19.
2. Moreover, whatever the effect of state procedural limits in other circumstances, a state could not

6
apply a newly discovered evidence rule that incorporates a due-diligence requirement to preclude a Brady
claim. If, as we submit, the Brady doctrine as interpreted in Banks bars a state from withholding exculpatory evidence that a defendant could uncover
through the exercise of diligence, a state rule that limits consideration of a Brady claim that the defendant
failed to uncover would itself violate Brady—a point
we made in the petition (at 15) but that the State
simply ignores.
The courts below recognized this very point. The
trial court noted petitioner’s contention that “the
State cannot argue that his Brady claims are untimely based on Banks.” Pet. App. 31a. But that court
noted that the Florida Supreme Court reads Brady as
including a due-diligence requirement. Id. at 28a. It
therefore rejected petitioner’s Brady argument because “the Florida Supreme Court has found that
Banks did not overrule Florida law holding that the
State does not have the duty to prepare the defense’s
case.” Id. at 32a. And as the State recognizes, “the
Florida Supreme Court affirmed the trial court without qualification.” Opp. 18. Accordingly, as explained
in the petition (at 14-15), the newly discovered evidence rule applied below and invoked by the State is
necessarily premised on a misapplication of Brady,
and is not an independent and adequate state ground
for the decision below.
C. The challenge to the Florida courts’ duediligence requirement is properly presented here.
We showed in the petition that the courts are divided on whether the Brady rule includes a due-diligence element and that the holding below contributes

7
to this conflict. Pet. 11-25. The State does not deny
that there is such a conflict. But it insists that the
question is not presented here because the court below, although expressly applying a due-diligence requirement to preclude consideration of newly discovered evidence, did not address whether “a defendant’s
diligence can be considered when addressing Brady’s
suppression prong.” Opp. 21; see id. at 19-21. This argument is wrong.
1. The State is correct in observing that the recitation of the Brady test articulated in the decision below does not expressly include a due-diligence requirement. See Pet. App. 8a (quoting Strickler, 527 U.S. at
281-82). But as we showed in the petition (at 13-14 &
n.7), the Florida Supreme Court in recent years has
repeatedly applied a diligence requirement in rejecting Brady claims; the State does not deny that is so.
And as we have just explained, the trial court relied
on Florida Supreme Court precedent in expressly applying a due-diligence screen in rejecting petitioner’s
Brady claim, while “the Florida Supreme Court affirmed the trial court without qualification.” Opp. 18.
The holding below therefore must be understood to
have been infected by the Florida Supreme Court’s
long-standing application of a due-diligence test to
Brady claims.
Moreover, the court below characterized petitioner’s claim as being “that newly discovered evidence proves the State committed Brady and Giglio
violations,” and then indicated that “[i]n order to
demonstrate entitlement to relief based on newly discovered evidence,” “it must appear that defendant or
his counsel could not have known [of it] by the use of

8
diligence.” Pet. App. 5a (citation and internal quotation marks omitted). The Florida Supreme Court proceeded to reject petitioner’s “newly discovered evidence claim” regarding Slater’s testimony for failure
to satisfy this requirement. Id. at 9a. It therefore appears that, at least in part, the due-diligence ruling
below was “interwoven with the federal law” Brady
and Giglio claims. Caldwell, 472 U.S. at 327.
2. The State is equally wrong in its further argument that a due-diligence requirement governing
Brady claims is consistent with Banks. Opp. 21-24.
The State understands Banks to address the requirements, not of Brady, but of the federal habeas causeand-prejudice requirement. Although Banks did arise
in the federal habeas context, the Court explained
that “cause” in a habeas case “[c]orrespond[s] to the
second Brady component (evidence suppressed by the
State).” 540 U.S. at 691. Accordingly, the Court was
discussing the constitutional Brady rule, and not the
habeas requirements, when it held: “A rule thus declaring ‘prosecutor may hide, defendant must seek,’ is
not tenable in a system constitutionally bound to accord defendants due process.” Id. at 696 (citation omitted). This point is apparent from the State’s own brief,
which appears to recognize that the myriad federal
and state decisions applying Banks to reject a Brady
due-diligence rule were interpreting the Constitution.
Opp. 24; see Pet. 16-20 (citing cases).
D. The Florida Supreme Court misapplied
Brady and Giglio.
Even if the State were correct that the due-diligence issue is not presented here, the Florida Supreme Court’s additional errors in its application of
Brady and Giglio—made in the context of a capital

9
case, where the evidence of guilt is strikingly weak—
warrant this Court’s attention.
1. We showed in the petition that the Florida Supreme Court’s approach to Brady was backwards. The
court first held that there was no Brady violation, and
then rejected Dailey’s argument that the Brady evidence should be considered cumulatively with the
other evidence in the case because Dailey “failed to establish a Brady violation, [so] no * * * cumulative
analysis was required.” Pet. App. 12a. In fact, however, it is only when viewed in the context of the entire
record that a court can determine whether the suppressed evidence could have affected the outcome of
the case and therefore was material within the meaning of Brady, Pet. 26-27. The States makes no response to this point at all.
And the Florida court’s error on this element of
Brady was not an inconsequential procedural hiccup.
The court rejected Dailey’s Brady claim for lack of materiality, a holding that could well have been different
had the court considered the Brady materials in light
of the verdict’s “already * * * questionable validity.”
Agurs, 427 U.S. at 113.
2. We also showed in the petition that the court
below either misunderstood Giglio or failed to address
Dailey’s Giglio argument. Pet. 27-29. Dailey argued to
the Florida Supreme Court that the State improperly
failed to disclose the impeachment evidence provided
by Coleman’s statement that Detective Halliday
promised to reduce inmates’ charges in return for inculpatory testimony against Dailey—but the Florida
Supreme Court rejected the claim because Dailey
failed to show that the State presented false testimony
at trial. The court therefore responded to Dailey’s

10
claim of apples by noting the absence of oranges. This
obvious analytical error, too, demands correction in a
capital case.
Here again, the State fails to address Dailey’s argument. The State maintains that Coleman’s testimony was not material. Opp. 25-26. But that argument—which is wrong on its own terms2—simply disregards the nature of the error committed by the court
below. The State also maintains that Dailey argued to
the circuit court that the prosecution presented false
testimony at trial. Opp. 27. But that is beside the
point: Dailey argued to the Florida Supreme Court
that the State failed to disclose impeachment evidence, and that court left his constitutional claim unresolved.
E. The cumulative effect of the suppressed
evidence undermines confidence in the
verdict.
Finally, and crucially, there is every reason to believe that the evidence withheld from Dailey in violation of Brady and Giglio, if viewed in the context of
the State’s “shockingly sparse” case (Catholic Bishops
Br. 3), “could have affected the judgment of the jury.”
Wearry, 136 S. Ct. at 1006 (citations and internal quotation marks omitted).
In arguing to the contrary (Opp. 27-28), the State
relies on the following bits of evidence to show that its
case was sufficiently strong to survive consideration
of the withheld evidence:

Coleman’s evidence is material because it is the first direct
proof showing that Halliday promised leniency in return for inculpatory testimony. Pet. 28-29.
2

11
•

since-recanted statements offered by
Pearcy in a self-serving effort to evade his
own responsibility for the crime;
• discredited and self-evidently outlandish
testimony offered by jailhouse informants
who stated that Dailey confessed the crime
to them—but only after a detective visited
the jail to offer them leniency in exchange
for inculpatory evidence;
• testimony by Pearcy’s girlfriend that Dailey
left Pearcy’s house with Pearcy and the victim, which is contradicted by the evidence
of another witness—supported by telephone records—that Pearcy and the victim
left the house with that witness but without
Dailey, and that Pearcy returned alone;
• and evidence that the day after the murder,
all those at Pearcy’s house, including two
people who unquestionably had no involvement in the crime, “fled to Miami” at
Pearcy’s suggestion.
Given the weakness of this case, Slater’s evidence
that Pearcy had a motive for committing the crime
and confessed to the murder, as well as Coleman’s testimony that jailhouse informants were offered a deal
for their testimony, “is sufficient to ‘undermine confidence’ in the verdict” (Wearry, 136 S. Ct. at 1006 (citation omitted))3 —and that certainly is true when the
The State maintains that Slater’s testimony was too equivocal
to be favorable to Dailey within the meaning of Brady. Opp. 2526. As we acknowledged in the petition (at 6-8), Slater indicated—after being contacted by current and former assistant
state’s attorneys—that he no longer was sure that his recollection concerned the Boggio case. But given both Slater’s initially
3

12
evidence is viewed cumulatively. This Court should
intervene in light of the “substantial likelihood that
an innocent man could soon be executed for a crime
that he did not commit.” Prosecutors Br. 17.
CONCLUSION
The petition for a writ of certiorari in this case and
in No. 19-7309, Dailey v. Florida, should be granted.

unequivocal account and that his description of the victim’s body
and location matched that of the Boggio case, this evidence could
well have swayed the jury.

13
Respectfully submitted.
LAURA FERNANDEZ
127 Wall Street
New Haven, CT 06511
JOSHUA DUBIN
201 S. Biscayne Blvd.
Ste. 1210
Miami, FL 33131-4316
CYD OPPENHEIMER
155 West Rock Ave.
New Haven, CT 06515
SCOTT A. EDELMAN
STEPHEN P. MORGAN
Milbank LLP
55 Hudson Yards
New York, NY 10001
KARA R. OTTERVANGER
JULISSA R. FONTAN
Capital Collateral Regional Counsel Middle
Region
12973 N. Telecom Parkway
Temple Terrace, FL 33637

CHARLES A. ROTHFELD
Counsel of Record
ANDREW J. PINCUS
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006
(202) 263-3000
crothfeld@mayerbrown.com
MICHAEL B. KIMBERLY
PAUL W. HUGHES
McDermott Will & Emery
LLP
500 N. Capitol Street, NW
Washington, DC 20001
(202) 756-8000
EUGENE R. FIDELL
Yale Law School
Supreme Court Clinic
127 Wall Street
New Haven, CT 06511

SETH MILLER
Innocence Project of Florida, Inc.
1100 E. Park Ave
Tallahassee, FL 323012651
Counsel for Petitioner
JUNE 2020
________________________

* The representation of a party by a clinic affiliated with Yale Law School
does not reflect any institutional views of Yale Law School or Yale University.

